Case: 18-55854, 04/12/2021, ID: 12070319, DktEntry: 62-1, Page 1 of 5

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

APR 12 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 18-55854
D.C. Nos. 2:16-cv-09678-TJH
2:04-cr-01131-GAF-7

v.
MEMORANDUM*

WILLIAM FERGUSON,
Defendant-Appellant.

Appeal from the United States District Court
for the Central District of California
Terry J. Hatter, Jr., District Judge, Presiding
Submitted April 8, 2021**
Pasadena, California
Before: W. FLETCHER, WATFORD, and HURWITZ, Circuit Judges.
William Ferguson appeals the denial of his 28 U.S.C. § 2255 motion.
Because the parties are familiar with the facts and procedural history, we do not
restate them here except as necessary to explain our disposition.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

App. 1a

Case: 18-55854, 04/12/2021, ID: 12070319, DktEntry: 62-1, Page 2 of 5

The district court found Ferguson procedurally defaulted on his claims. It
found that he failed to show actual prejudice that would excuse the procedural
default because the only support offered for his insufficiency of the evidence claim
regarding the drug trafficking predicates was a transcript of the Government’s
closing argument. We have jurisdiction under 28 U.S.C. § 2253, and we affirm.
The district court’s denial of a § 2255 petition is reviewed de novo. United
States v. Fultz, 923 F.3d 1192, 1194 (9th Cir. 2019). “Determinations of whether
there has been a procedural default are also reviewed de novo.” United States v.
Ratigan, 351 F.3d 957, 961 (9th Cir. 2003).
“Where a defendant has procedurally defaulted a claim by failing to raise it
on direct review, the claim may be raised in habeas only if the defendant can first
demonstrate either cause and actual prejudice . . . or that he is actually innocent.”
Bousley v. United States, 523 U.S. 614, 622 (1998) (citations and quotations
omitted).
To establish prejudice, Ferguson must show there is a “reasonable
probability” that the outcome of the proceedings would have been different. See
Strickler v. Greene, 527 U.S. 263, 289 (1999). To show actual innocence,
Ferguson must demonstrate “in light of all the evidence … that it is more likely

2

App. 2a

Case: 18-55854, 04/12/2021, ID: 12070319, DktEntry: 62-1, Page 3 of 5

than not that no reasonable juror would have convicted him.” Ratigan, 351 F.3d at
965.
Ferguson fails to demonstrate that had he appealed the sufficiency of the
evidence supporting the § 924(c) convictions based on the drug trafficking charges,
there is a reasonable probability he would have succeeded on the merits of that
appeal. He would need to show that the evidence underlying the drug trafficking
convictions was insufficient, such that “after viewing the evidence in the light most
favorable to the prosecution” no “rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt.” United States v.
Krouse, 370 F.3d 965, 967 (9th Cir. 2004) (quoting Jackson v. Virginia, 443 U.S.
307, 319 (1979)).
The evidence supporting Ferguson’s convictions for attempted possession
with intent to distribute cocaine was legally sufficient for each of the challenged
counts. The jury heard testimony concerning the conspiracy’s aims generally that
supported an inference in favor of the government. See United States v. Stanton,
501 F.3d 1093, 1101 (9th Cir. 2007) (describing that where the evidence permits
conflicting inferences—one indicating guilt and the other innocence—the court is
to presume the trier of fact resolved these inferences in favor of the government).
There was also evidence for each of the relevant robberies from which a rational
3

App. 3a

Case: 18-55854, 04/12/2021, ID: 12070319, DktEntry: 62-1, Page 4 of 5

juror could conclude Ferguson attempted to find drugs in the home, including coconspirator testimony that the conspirators were informed there might be drugs at
each location and that conspirators asked victims where the drugs were.
The evidence supporting the jury’s finding that Ferguson possessed or used
a firearm in connection with possession of cocaine was also legally sufficient. “A
conviction for possession of a firearm ‘in furtherance of’ a drug trafficking offense
or crime of violence under § 924(c) requires proof that the defendant possessed the
weapon to promote or facilitate the underlying crime.” Krouse, 370 F.3d at 967.
In determining whether sufficient evidence supports a conviction under this
Section, we consider whether “facts in evidence reveal a nexus between the
guns . . . and the underlying offense.” Id. at 968.
Here, evidence adduced at trial showed Ferguson was armed when he went
to the house on Hubbard Street. Evidence showed that he carried and displayed the
gun as part of a show of authority intended to enable the offense of possession with
intent to distribute. Ferguson possessed the firearm immediately, accessibly, and
strategically on his person while taking possession of the drugs with intent to
distribute. See United States v. Rios, 449 F.3d 1009, 1012 (9th Cir. 2006). This is
sufficient to establish the requisite nexus. Id.

4

App. 4a

Case: 18-55854, 04/12/2021, ID: 12070319, DktEntry: 62-1, Page 5 of 5

Because Ferguson cannot demonstrate a likelihood of success on his
insufficiency of the evidence claims, he cannot establish prejudice or actual
innocence to excuse any procedural default. Accordingly, we need not resolve any
other issues raised by the parties.
AFFIRMED.

5

App. 5a

Case 2:16-cv-09678-TJH Document 31 Filed 06/21/18 Page 1 of 4 Page ID #:728

1
2
3
4
5
6
7

United States District Court
Central District of California
Western Division

8
9
10
11
12

WILLIAM FERGUSON,

13
14
15
16

Petitioner,

CV 16-09678 TJH
CR 04-1131 GAF

v.
UNITED STATES OF AMERICA,
Respondent.

17

Order

JS-6

18

The Court has considered Petitioner William Ferguson’s amended motion to

19

vacate, set aside, or correct his sentence under 28 U.S.C. § 2255, together with the

20

moving and opposing papers.

21

In 2008, a jury convicted Ferguson of: (1) One count of conspiracy to commit

22

deprivation of rights under color of law, in violation of 18 U.S.C. § 241; (2) Six counts

23

of deprivation of rights under color of law, in violation of 18 U.S.C. § 242; (3) One

24

count of conspiracy to posses a controlled substance with intent to distribute, in

25

violation of 21 U.S.C. § 846; (4) Three counts of attempting to possess a controlled

26

substance with intent to distribute, in violation of 21 U.S.C. § 841(a)(1); (5) Two

27

counts of possession of a controlled substance with intent to distribute, in violation of

28

21 U.S.C. § 841(a)(1); and (6) Four counts of using a firearm in furtherance of a crime
Order – Page 1 of 4

App. 6a

Case 2:16-cv-09678-TJH Document 31 Filed 06/21/18 Page 2 of 4 Page ID #:729

1

of violence or a drug trafficking crime, in violation of 21 U.S.C. § 924(c).

2

The Court sentenced Ferguson to 360 months for the thirteen counts involving

3

deprivation of rights under color of law and possession of a controlled substance with

4

intent to distribute, to be served concurrently, and 984 months for the four § 924(c)

5

counts, to be served consecutively.

6

Ferguson appealed his conviction and sentence, arguing that the Court erred by

7

limiting the scope of cross-examination of the Government’s witnesses and that there

8

was an Eighth Amendment violation. See United States v. Ferguson, 377 Fed. Appx.

9

718, *1 (9th Cir. 2010). The appeal was denied. See Ferguson, 377 Fed. Appx. at *1.

10

In 2011, Ferguson filed his first 28 U.S.C. § 2255 motion, arguing that his trial

11

counsel was ineffective. The Court denied Ferguson’s § 2255 motion, and Ferguson

12

did not appeal. In 2017, the Ninth Circuit Court of Appeals authorized Ferguson to file

13

this successive § 2255 motion, which challenges his four § 924(c) convictions, pursuant

14

to Johnson v. United States, 135 S.Ct. 2251 (2015). Section 924(c) criminalizes the

15

use or carrying of a firearm during a crime of violence or a drug trafficking crime.

16

Here, Ferguson’s four § 924(c) convictions were predicated on both proscribed

17

categories. Specifically, the Court instructed the jury that deprivation of rights under

18

color of law, and the conspiracy thereof, were crimes of violence, and that possession

19

of a controlled substance with intent to distribute, and the conspiracy or attempt

20

thereof, were drug trafficking crimes.

21

A § 2255 motion must be filed within one year of, inter alia: (1) The date the

22

conviction became final; or (2) The date the Supreme Court initially recognized a right

23

that was retroactively applicable to cases on collateral review. 28 U.S.C. § 2255(f).

24

Here, Petitioner’s conviction became final in 2010. See Clay v. United States, 537

25

U.S. 522, 524-525 (2003). Further, Ferguson failed to establish that Johnson’s

26

retroactive rule invalidating the residual clause of the Armed Career Criminal Act, 18

27

U.S.C. § 924(3)(2)(b), applied with equal force to the residual clause of § 924(c).

28

Accordingly, Petitioner’s 2017 § 2255 motion is untimely.
Order – Page 2 of 4

App. 7a

Case 2:16-cv-09678-TJH Document 31 Filed 06/21/18 Page 3 of 4 Page ID #:730

1

Untimeliness, however, does not bar habeas relief based on actual innocence.

2

McQuiggin v. Perkins, 133 S. Ct. 1924, 1932 (2013). Here, Petitioner argued that he

3

is actually innocent because the deprivation of rights, or conspiracy thereto, is not a

4

crime of violence under § 924(c)(3)(A) [“Force Clause”], and § 924(c)(3)(B)

5

[“Residual Clause”] is invalid in light of Johnson. However, even if a provision of the

6

Constitution forbids convictions on a particular ground, a verdict need not be set aside

7

where it is possible to conclusively determine that the jury relied on a valid ground.

8

United States v. Geozos, 870 F.3d 890, 898 (9th Cir. 2017).

9

In the special jury verdict form, the jury found Ferguson guilty of using or

10

carrying a firearm in furtherance of a drug trafficking crime. Accordingly, even if the

11

deprivation of rights counts cannot constitutionally be categorized as crimes of

12

violence, Ferguson cannot establish actual innocence of his § 924(c) convictions unless

13

he establishes that he did not use or carry a firearm in furtherance of a drug trafficking

14

crime. See Geozos, 870 F.3d at 898.

15

Ferguson argued, here, for the first time, that the § 924(c) convictions cannot

16

validly be predicated on his drug trafficking convictions because the Government’s

17

evidence tying the firearms to the drug trafficking offenses was insufficient. He,

18

further, argued that because his § 924(c) convictions would have been upheld due to

19

the categorization of deprivation of right convictions as crimes of violence, Ferguson

20

had little “incentive” or “motivation” to appeal this issue.

21

petitioner fails to raise an issue on direct appeal, his claim is procedurally defaulted.

22

See United States v. Frady, 456 U.S. 152, 164 (1982). However, Ferguson may

23

overcome this procedural default by proving, inter alia, actual prejudice. See Frady,

24

456 U.S. at 164.

Regardless, when a

25

Here, Ferguson argued that he is actually prejudiced by the insufficiency of the

26

evidence at trial because, barring that, nothing else can sustain his § 924(c) convictions.

27

Ferguson’s only support for his insufficiency claim is a transcript of the Government’s

28

closing argument at trial. However, closing arguments are not evidence, and cannot
Order – Page 3 of 4

App. 8a

Case 2:16-cv-09678-TJH Document 31 Filed 06/21/18 Page 4 of 4 Page ID #:731

1

be used to consider the sufficiency of the evidence presented at trial. Accordingly,

2

Ferguson failed to show that there was insufficient evidence to convict him on the §

3

924(c) counts predicated on drug trafficking crimes.

4
5

Accordingly,

6
7
8

It is Ordered that the motion to vacate, set aside, or correct his sentence under
28 U.S.C. § 2255 be, and hereby is, Denied.

9
10
11

It is further Ordered that a certificate of appealability be, and hereby is,
Granted.

12
13

Date: June 21, 2018

14

__________________________________

15

Terry J. Hatter, Jr.
Senior United States District Judge

16
17
18
19
20
21
22
23
24
25
26
27
28

Order – Page 4 of 4

App. 9a

